1
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Rosemary Garitv
APWU

—PETITIONER

—RESPONDENT(S)

PROOF OF SERVICE
I, Rosemaiy_Garity, do swear or declare that on this date, July.14, 2021 as
required by U.S. Supreme Court Rule 29,1 have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
Counsel, and on every other person required to be served, by email per Supreme
Court Special Order.
The names and addresses of those served are as follows:
Joni S. Jacobs
1401 K Street NW Suite 300 Washington. DC 20005
Email iiacobs@murvhyDllc.com
David A Rosenfeld
Weinberg, Roger & Rosenfeld
1375 55th Street
Emeryville, CA 94608
Email: drosenfeld@unioncounsel.net
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 14, 2021.
s/Rosemarv Garitv
Rosemary Garity

RECEIVED
JUL 19 2021

